IN THE SUPREME COURT OF THE UNITED STATES

No. 19-439

CTIA — THE WIRELESS ASSOCIATION®,

Petitioner,
v.

THE CITY OF BERKELEY, CALIFORNIA, AND
CHRISTINE DANIEL, CITY MANAGER OF BERKELEY,
CALIFORNIA, IN HER OFFICIAL CAPACITY,

Respondents.

CERTIFICATE OF SERVICE

I, Cory L. Andrews, counsel for amicus curiae Washington Legal Foundation
(WLF) and a member of the Bar of this Court, certify that on this 1st day of
November, 2019, three copies of WLF’s brief were posted via first-class mail,
addressed to the following:

Theodore B. Olson

GIBSON DUNN & CRUTCHER LLP
1050 Connecticut Avenue, NW
Washington, DC 20036

(202) 955-8668
tolson@gibsondunn.com
Counsel for Petitioner

Lawrence Lessig

HARVARD LAW SCHOOL

1563 Massachusetts Avenue
Cambridge, MA 02138

(617) 496-8853
lessig@law.harvard.edu
Counsel for Respondents
Under Supreme Court Rule 29.3, I certify that I delivered an electronic copy
of WLF's brief to counsel of record at the e-mail addresses above, and that all

parties required to be served have been served.

Gage GK
Cory L. Andrews
WASHINGTON LEGAL FOUNDATION
2009 Massachusetts Ave., NW
Washington, DC 20036
(202) 588-0302
candrews@wlf.org

Counsel for Amicus Curiae
Washington Legal Foundation
Dated: November 1, 2019
